TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Report on Audit of Cost Accounting
                 Standards 420, Accounting for Independent
                  Research and Development Costs and Bid
                             and Proposal Costs



                                         September 2005

                             Reference Number: 2005-1C-174




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Web Site          | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             September 26, 2005


 MEMORANDUM FOR DAVID A. GRANT
                DIRECTOR OF PROCUREMENT
                INTERNAL REVENUE SERVICE




 FROM:                           Daniel R. Devlin
                                 Assistant Inspector General for Audit (Headquarters Operations
                                 and Exempt Organizations Programs)

 SUBJECT:                        Report on Audit of Cost Accounting Standards 420, Accounting for
                                 Independent Research and Development Costs and Bid and Proposal
                                 Costs (Audit # 20051C0240)

 The Defense Contract Audit Agency (DCAA) examined the contractor’s compliance with the
 requirements of Cost Accounting Standards (CAS) 420, Accounting for Independent Research
 and Development Costs and Bid and Proposal Costs. The purpose of the examination was to
 determine if the contractor complied with the requirements of CAS 420 and any applicable
 Federal Acquisition Regulation1 Part 31 requirements during the period October 5, 2004, through
 April 28, 2005.
 The DCAA reported that the contractor complied in all material respects with the requirements
 of CAS 420 during the period October 5, 2004, through April 28, 2005. The DCAA also noted
 the contractor’s accounting policies and procedures for charging costs to Federal Government
 contracts are in accordance with applicable laws and regulations. The DCAA currently considers
 the environment and overall accounting system to be adequate.




 1
     48 C.F.R. pt 1-53 (2002).
                Report on Audit of Cost Accounting Standards 420, Accounting
                for Independent Research and Development Costs and Bid and
                                        Proposal Costs


The information in this report should not be used for purposes other than those intended without
prior consultation with the Treasury Inspector General for Tax Administration regarding their
applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright, Director, at
(202) 927-7077.


Attachment




                                                                                                   2
                                    NOTICE:
The Office of Inspector General for Tax Administration has no objection to the release of
this report, at the discretion of the contracting officer, to duly authorized representatives
of the contractor.
The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to the
public.
This report may not be released without the approval of this office, except to an agency
requesting the report for use in negotiating or administering a contract with the
contractor.
